                               Report No. 04-INTEL-02
                                    December 12, 2003
                                           Audit Report



OFFICE OF THE INSPECTOR GENERAL
             OF THE
    DEPARTMENT OF DEFENSE




DEPUTY INSPECTOR GENERAL FOR INTELLIGENCE

          DoD Security Clearance
      Adjudication and Appeal Process
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/ir/reports or contact
  the Secondary Reports Distribution Unit of the Audit Followup and Technical
  Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

AJ                    Administrative Judge
CAF                   Central Adjudication Facility
DISCO                 Defense Industrial Security Clearance Office
DOHA                  Defense Office of Hearings and Appeals
GAO                   General Accounting Office
IG DoD                Inspector General of the Department of Defense
LOD                   Letter Of Denial
PERSEREC              Defense Personnel Security Research Center
PSAB                  Personnel Security Appeal Board
SOR                   Statement Of Reasons
U.S.C.                United States Code
USD(I)                Under Secretary of Defense for Intelligence
WHS                   Washington Headquarters Services
                                                                      December 12, 2003

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR INTELLIGENCE
               GENERAL COUNSEL OF THE DEPARTMENT OF
                 DEFENSE

SUBJECT: Report on DoD Security Clearance Adjudication and Appeal Process
         (Report No. 04-INTEL-02)


        We are providing this report for review and comment. This report is the sixth in a
series about DoD security clearances. We performed the audit in support of a
congressional request that “the Office of the Inspector General conduct a thorough and
detailed review of the security clearance investigation and adjudication processes.” We
considered management comments on a draft of this report when preparing the final
report.

       DoD Directive 7650.3 requires that all recommendations be resolved promptly.
The comments of the Under Secretary of Defense for Intelligence and the General
Counsel, DoD were partially responsive. We request comments on the final report by
January 12, 2004.

        If possible, please send management comments in electronic format (Adobe
Acrobat file only) to Audam@dodig.osd.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed /
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).

        Management comments should indicate concurrence or nonconcurrence with the
finding and each applicable recommendation. Comments should describe actions taken
or planned in response to agreed-upon recommendations and provide the completion
dates of the actions. State specific reasons for any nonconcurrence and propose
alternative actions, if appropriate.
       We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Robert K. West at (703) 604-9803 (DSN 664-9803) or Ms. Lois A. Therrien at
(703) 602-2207 (DSN 332-2207). See Appendix F for the report distribution. The team
members are listed on the inside back cover.




                                          Thomas F. Gimble
                                   Acting Deputy Inspector General
                                           for Intelligence
          Office of the Inspector General of the Department of Defense
Report No. 04-INTEL-02                                                  December 12, 2003
   (Project No. D1999AD-0079.05)

         DoD Security Clearance Adjudication and Appeal Process

                                   Executive Summary

Who Should Read This Report and Why? DoD officials who manage military,
civilian, or contractor employees that require a security clearance should read this report.
In particular, DoD officials responsible for security policy should read this report because
it addresses a policy issue relating to disparate treatment in the adjudication and appeal
process for military and civilian employees and contractor employees. In addition, the
Business Initiative Council, its Steering Committee, and its Executive Directors should
read this report because it relates specifically to the Business Initiative Council initiative
to “Reengineer the Personnel Security Investigation” process.

Background. This report is the sixth in a series of reports on the DoD security clearance
process and was initiated by a congressional request from the Chairmen of the Senate and
House Committees on Armed Services in March 2000.

Executive Order No. 12958, “Classified National Security Information,” April 17, 1995
(Amended March 25, 2003), prescribes a uniform system for classifying, safeguarding,
and declassifying national security information that specifies that a person may have
access to classified information provided a favorable determination of eligibility for
access has been made, the person has signed an approved nondisclosure agreement, and
the person has a need-to-know the information. Executive Order No. 12968, “Access to
Classified Information,” August 2, 1995, specifies Government-wide procedures for
determining eligibility for access to classified information and applies to military,
civilian, and contractor employees. The favorable determination of eligibility for access
results in a security clearance being granted. Even after a clearance has been granted, the
custodian of any classified information is responsible for controlling access by
determining who has a “need-to-know.”

Results. This report addresses a policy issue relating to the fairness of affording DoD
civilian employees and military members with fewer due process rights in the
adjudication and appeal processes than those of contractor personnel. DoD established
two adjudication and appeal processes, one for military and civilian employees and one
for contractor employees. The two processes result in military and civilian employees
and contractor employees receiving disparate treatment in the adjudication and appeal
process, with contractor employees afforded more due process rights. Establishing a
single, common security clearance adjudication and appeal process and developing a
single directive or regulation for that process will provide consistency in the application
of the adjudicative guidelines and allow DoD to derive efficiencies and benefits. (See the
Finding section of the report for the detailed recommendations.)

Management Comments and Audit Response. The Deputy Assistant Secretary of
Defense (Security and Information Operations), responding for the Under Secretary of
Defense for Intelligence, and the Deputy General Counsel (Legal Counsel), responding
for the General Counsel, DoD, both concurred that a review of the adjudication process
was appropriate, but nonconcurred that a single process for contractor, civilian, and
military employees must result. The Deputy Assistant Secretary and the Deputy General
Counsel also nonconcurred that a single directive for military and civilian employees and
contractor employees must result. The Deputy General Counsel, however, concurred that
a review of the regulations governing the security clearance process is appropriate.

Management comments were partially responsive in agreeing that the adjudication and
appeal process should be reviewed as well as the regulations governing the security
clearance process. Our primary concern is that the existing two adjudication and appeal
processes result in disparate treatment for individuals with access to the same classified
information. Also, the new security challenges facing DoD necessitate that the
adjudication and appeal process be as effective and efficient as possible. We believe that
the most effective and efficient way to ensure equal treatment for all employees is
through a single adjudication and appeal process that is implemented by a single directive
or regulation.

The draft report was issued on May 16, 2003. In response to this report, we ask that the
Under Secretary of Defense for Intelligence and the General Counsel, DoD comment on
whether planned or ongoing reviews of the adjudication and appeal process will result in
a process that achieves equality for all parties—civilian, military, and contractor
employees. We also ask them to comment specifically on why a single directive would
not be the most logical as well as the most efficient and effective approach to ensure an
equitable adjudication and appeal process. Comments should be received by January 12,
2004. See the Finding section of the report for a discussion of management comments
and the Management Comments section of the report for the complete text of the
comments.




                                            ii
Table of Contents

Executive Summary                                                       i

Background                                                              1

Objectives                                                              3

Finding
     Two Adjudication and Appeal Processes for Obtaining DoD
       Security Clearances                                              4

Appendixes
     A. Scope and Methodology                                          22
     B. Prior Coverage                                                 23
     C. Congressional Request                                          26
     D. Comparison of Executive Order Nos. 12968 and 10865,
           DoD 5200.2-R and DoDD 5220.6                                28
           D1. Executive Order 12968, Section 5.2(a)                   32
           D2. DoD 5200.2-R, Section 8-201 and Appendix N              33
           D3. Executive Order 10865, Sections 3 and 4                 36
           D4. DoDD 5220.6, Sections 4.3. and 4.4. and Enclosure E3,
                  Sections E3.1.1. through E3.1.36.6.                  38
     E. Personnel Security Appeal Boards                               45
     F. Report Distribution                                            47

Management Comments
     Office of the Under Secretary of Defense for Intelligence         49
     Office of the General Counsel of the Department of Defense        50
Background
           This report is the sixth in a series about DoD security clearances and discusses the
           appeal process. The audit was initiated by a congressional request in March 2000,
           when the Chairmen of the Senate and House Committees on Armed Services
           requested further review of the security clearance investigation and adjudication
           processes (Appendix C). The first five reports discussed the effects of security
           clearances on three special access programs, security clearances for personnel in
           mission-critical and high-risk positions, tracking security clearance requests, the
           resources required to adjudicate security clearances within DoD, and the DoD
           adjudication process of contractor clearances. This report addresses a policy issue
           relating to the fairness of affording DoD civilian employees and military members
           with fewer due process rights in the adjudication and appeal processes than those
           of contractor personnel.

           Right to Protect Information. The need for protecting a nation’s secrets has
           been recognized from the earliest days of established government. In the United
           States, the authority to do so has historically been based on the inherent war
           powers of the President under the Constitution. The executive branch exercised
           the power to protect national defense and foreign relations information without
           legal formality until 1947 when an executive order was first issued under
           President Truman. This was followed by a series of five revisions issued under
           Presidents Nixon, Carter, Reagan, Clinton, and Bush. The Executive order
           currently in effect is Executive Order (Exec. Order) No. 12958, “Classified
           National Security Information,” April 17, 1995 (Amended March 25, 2003). In
           addition to the inherent powers of the executive branch under the Constitution,
           the executive branch’s authority to keep information secret is further recognized
           in five statutes: the Espionage Act, 40 Stat. 217, as amended; the National
           Security Act of 1947, 61 Stat. 496 (sections 401-432, title 50, United States Code
           [50 U.S.C. 401-432]); the Atomic Energy Act of 1954, 68 Stat. 919
           (42 U.S.C. 2161-2169); the Counterintelligence and Security Enhancements Act
           of 1994, amending the National Security Act of 1947, 108 Stat. 3435
           (50 U.S.C. 801); and the Freedom of Information Act, 5 U.S.C. 552.
           Classified Information. Exec. Order No. 129581 prescribes a uniform system for
           classifying, safeguarding, and declassifying national security information. The
           executive order establishes three classification levels that shall be applied to
           information, the unauthorized disclosure of which reasonably could be expected
           to cause damage to national security: Top Secret, exceptionally grave damage;
           Secret, serious damage; and Confidential, damage.

           Security Clearances and Access. Exec. Order No. 12958 states that a person
           may have access to classified information provided that a favorable determination
           of eligibility for access has been made, the person has signed an approved
           nondisclosure agreement, and the person has a need to know the information. The
           favorable determination of eligibility for access results in a security clearance
           being granted. Even after a clearance has been granted, the custodian of any

1
    These portions of the executive order were not changed in the March 25, 2003, Amended version.



                                                      1
            classified information is responsible for controlling access by determining who
            has a “need-to-know.”

            Personnel security clearance investigations are intended to establish and maintain a
            reasonable threshold for trustworthiness through investigation and adjudication
            before granting and maintaining access to classified information. The initial
            investigation provides assurance that a person has not demonstrated behavior that
            could be a security concern. Reinvestigation is an important, formal check to help
            uncover changes in behavior that may have occurred after the initial clearance was
            granted. The standard for reinvestigation is 5 years for Top Secret, 10 years for
            Secret, and 15 years for Confidential clearances.

            Clearance Requirements. On March 24, 1997, President Clinton approved the
            Temporary Eligibility Standards and Investigative Standards, and the uniform
            Adjudicative Guidelines as required by Exec. Order No. 12968, “Access to
            Classified Information,” August 2, 1995. The investigative standards dictate the
            initial investigation and reinvestigation for access to Top Secret and Sensitive
            Compartmented Information and for access to Secret and Confidential
            information. Thirteen adjudicative guidelines were established.2

            Adjudication Process. The adjudication process involves neither the judgment of
            criminal guilt nor the determination of general suitability for a given position.
            Instead, it assesses a person’s trustworthiness and fitness for a responsibility that
            could, if abused, have unacceptable consequences for the national security of the
            United States. Eligibility for access is granted only where facts and circumstances
            indicate that access to classified information is clearly consistent with the national
            security interests of the United States. Any doubt shall be resolved in favor of the
            national security.

            Central Adjudication Facilities and Appeal Boards. The following eight
            Central Adjudication Facilities (CAFs) in DoD and their corresponding appeal
            boards are authorized to grant, deny, or revoke eligibility for Top Secret, Secret,
            and Confidential security clearances and/or Sensitive Compartmented Information
            accesses: Army, Navy, Air Force, Washington Headquarters Services (WHS),
            Defense Office of Hearings and Appeals (DOHA), Joint Chiefs of Staff, Defense
            Intelligence Agency, and National Security Agency. In addition, the Defense
            Industrial Security Clearance Office (DISCO), which is part of the Defense
            Security Service, is authorized to grant security clearances to contractor
            employees.3




2
    The 13 adjudicative guidelines are allegiance to the United States; foreign influence; foreign preference;
    sexual behavior; personal conduct; financial considerations; alcohol consumption; drug involvement;
    emotional, mental, and personality disorders; criminal conduct; security violations; outside activities; and
    misuse of information technology systems.
3
 This issue was addressed in Inspector General of the Department of Defense Report No. D-2001-065,
 “DoD Adjudication of Contractor Security Clearances Granted by the Defense Security Service,”
 February 28, 2001.



                                                         2
            Responsibilities. The Under Secretary of Defense for Intelligence (USD[I]),4 as
            the DoD senior agency official for the personnel security program, has primary
            responsibility for providing guidance, oversight, development, and approval for
            policy and procedures governing personnel security programs within DoD.5 The
            General Counsel, DoD, provides advice and guidance on the legal sufficiency of
            procedures and standards implementing the DoD Personnel Security Program,
            and oversees appeal procedures to verify that the rights of individuals are being
            protected consistent with the Constitution, laws of the United States, executive
            orders, directives, or regulations that implement the DoD Personnel Security
            Program and that are in the interest of national security. The main responsibility
            of the CAFs is adjudicating personnel security background investigations. The
            DoD Report to Congress, “Security Clearance Denial and Revocation Procedures
            for Department of Defense Civilian Employees,” March 1994, states that the
            Personnel Security Appeal Boards (PSABs) are responsible for ensuring that all
            DoD military and civilian employees are afforded identical safeguards in the
            appeal process. The DOHA Appeal Board affirms, remands, or reverses the
            clearance decisions handed down by the Administrative Judges (AJs) for
            contractor employees. Although USD(I) is responsible for providing guidance
            and policy for the security clearance process, the CAFs and the appeal boards are
            under the direction of their respective DoD Components.


Objectives
            Our specific audit objective was to determine the adequacy of the adjudication
            and appeal process for military, civilian, and contractor employees. See
            Appendix A for a discussion of the audit scope and methodology. See
            Appendix B for prior coverage related to the audit objectives.




4
 Prior to May 8, 2003, the DoD Personnel Security Program function was under the cognizance of the
 Assistant Secretary of Defense (Command, Control, Communications, and Intelligence) (ASD[C3I]).
 Throughout this report, reference is made to the Under Secretary of Defense for Intelligence (USD[I])
 rather than (ASD[C3I]).
5
    The Director of Central Intelligence is responsible for policy, guidance, and oversight of Sensitive
    Compartmented Information.


                                                         3
            Two Adjudication and Appeal Processes
            for Obtaining DoD Security Clearances
            DoD established one adjudication and appeal process for contractor
            employees to obtain a DoD security clearance and a second process for
            military and civilian employees. The two processes differ in their:

                   •   decision authorities and levels,

                   •   appeal board members,

                   •   basis for the appeal process,

                   •   personal appearance procedures,

                   •   access to classified information when the clearance is not
                       granted after the initial response to the Statement of Reasons
                       (SOR), and

                   •   degree of independence of decision authorities.

            The two processes continue to exist because DoD did not develop a single
            process when implementing Exec. Order No. 12968, “Access to Classified
            Information,” August 2, 1995. As a result, DoD military and civilian
            employees receive disparate treatment in that contractor employees are
            afforded more due process rights in the adjudication and appeal process.


Executive Orders Establishing Access to Classified
  Information
     Issuing a DoD security clearance requires the protection of national security
     information to be balanced with the other constitutional imperatives of due
     process and equal protection for U.S. citizens. Three Executive orders establish
     standards for access to classified information and employment in the department.

     Executive Order No. 10450. The first Executive order establishing standards for
     access to classified information was Exec. Order No. 10450, “Security
     Requirements for Government Employment,” April 27, 1953. Exec. Order
     No. 10450 requires that all persons seeking the privilege of employment or those
     who are privileged to be employed in the Government be adjudged by mutually
     consistent and no less than minimum standards and procedures. It also states that
     the investigation of persons entering or employed in the competitive service shall
     primarily be the responsibility of the Office of Personnel Management, except
     when the head of a department or agency assumes that responsibility. The
     investigations of persons (including consultants, however employed) entering the
     employment of, or employed by, the Government other than in the competitive
     service shall be the responsibility of the employing department or agency.


                                         4
The Supreme Court, in Department of the Navy versus Egan, 484 U.S. 518
                        U                                      U




(1988), states that “no one has the right to a security clearance” and that “the
grant of a clearance is an affirmative act of discretion . . . only when clearly
consistent with the interests of national security.” It held that the “clearly
consistent with the interests of national security” test indicates that “security
clearance determinations should err, if they must, on the side of denials.”

Executive Order No. 10865. Exec. Order No. 10865, “Safeguarding Classified
Information Within Industry,” February 20, 1960, provides procedures for
appealing security clearance decisions for non-Government, contractor employees.
It allows contractor employees to cross-examine witnesses either orally or through
written interrogatories. This executive order resulted from a Supreme Court
decision in Greene versus McElroy, 360 U.S. 474 (1959), that only with explicit
            U                        U




authorization from either the President or Congress were the respondents
empowered to deprive the petitioner of his job in a proceeding in which the
petitioner was not afforded the safeguards of confrontation and cross-examination.

Executive Order No. 12968. In October 1994, the National Security Act of 1947
was amended to require the President to establish standards and procedures to
govern access to classified information that would be binding on all departments,
agencies, and offices of the Executive branch (50 U.S.C. 435). The law requires
uniform minimum standards to ensure that employees in the Executive branch
whose access to classified information was threatened with denial or termination
be advised and given an adequate opportunity to respond to any adverse
information before a final agency decision. Conference Committee Report
language accompanying the legislation indicated that its purpose was to provide a
procedure that would not base security determinations on inaccurate or unreliable
information because of the effect on the careers and livelihoods of the individuals
concerned and of the possibility of depriving the Government of the services of
valuable employees.

Exec. Order No. 12968 followed that legislation and specifies Government-wide
procedures for determining eligibility for access to classified information.
Therefore, the 13 adjudicative guidelines, signed by President Clinton on
March 24, 1997, apply to military, civilian, and contractor personnel. However,
Exec. Order No. 12968 also states that it shall not diminish or otherwise affect the
denial and revocation procedures provided to individuals covered by Exec. Order
No. 10865, as amended.

Exec. Order No. 12968 also states that:

       •   security policies designed to protect classified information must ensure
           consistent, cost-effective, and efficient protection of classified
           information while providing fair and equitable treatment;

       •   eligibility for access is granted only where facts and circumstances
           indicate that access to classified information is clearly consistent with
           national security interests of the United States and that any doubts will
           be resolved in favor of national security; and




                                         5
                      •   background investigations and eligibility determinations conducted
                          under the order will be mutually and reciprocally accepted by all
                          agencies except when an agency has substantial information indicating
                          that an employee may not satisfy the standards.


Procedures to Deny or Revoke a Security Clearance
             Exec. Order Nos. 12968 and 10865 establish procedures that must be followed
             before a security clearance can finally be denied or revoked. Specifically, the
             applicant must be provided with the following information and rights:

                      •   a written SOR detailing why access authorization may be denied or
                          revoked,

                      •   an opportunity to reply to the SOR in writing,

                      •   an opportunity to appear personally and present evidence,

                      •   the right to be represented by counsel, and

                      •   a written notice of the final decision.

             For contractor employees, Exec. Order No. 10865 also provides an opportunity to
             cross-examine individuals that made adverse oral or written statements about the
             applicant.


Two Adjudication and Appeal Processes
             DoD established one adjudication and appeal process for contractor employees to
             obtain a DoD security clearance and a second process for military and civilian
             employees. Except for the opportunity to cross-examine witnesses, the executive
             orders prescribe similar processes for granting a clearance or issuing an SOR,
             responding to the SOR, making a clearance decision, and appealing the clearance
             decision. DoD implemented Exec. Order No. 12968 for the military and civilian
             employees in the revised DoD Regulation 5200.2-R (DoD 5200.2-R), “Personnel
             Security Program,” January 1987,6 which is issued and maintained by USD(I).
                                                     TP   PT




             DoD implemented Exec. Order No. 10865 for contractor employees through DoD
             Directive 5220.6 (DoDD 5220.6), “Defense Industrial Personnel Security
             Clearance Review Program,” January 2, 1992,7 which is administered by the
                                                                   TP   PT




             General Counsel, DoD. DoDD 5220.6 creates additional requirements for the
             contractor process. The specific current requirements for denying or revoking a
6
TP   Revised with Changes 1, 2, and 3 as of February 23, 1996, and the Assistant Secretary of Defense
     PT




     (Command, Control, Communications, and Intelligence) November 10, 1998, memorandum incorporating
     the March 24, 1997, uniform Adjudicative Guidelines and Temporary Eligibility Standards and
     Investigative Standards approved by the President.
7
TP   Revised with Changes 1, 2, 3, and 4 as of April 20, 1999.
     PT




                                                               6
            security clearance that were established in Exec. Order Nos. 12968 and 10865,
            and implemented through DoD 5200.2-R and DoDD 5220.6, are compared in
            Appendix D.

Decision Authorities and Levels
            First Decision Made by the Adjudicator. The first decision level, in both the
            military and civilian process and the contractor process, is the adjudicator, a
            trained security specialist, who must review all the information provided by the
            investigation and determine whether to grant or deny the clearance (Figure 1).

            The contractor process contains a two-step decision because a case analyst
            performs a preliminary review at DISCO, which may grant clearances for cases
            with little or no derogatory information, before the cases with derogatory
            information are transferred to the DOHA adjudicators.8 If the adjudicator decides
            to deny or revoke eligibility for a security clearance, the adjudicator must prepare
            and provide to the individual an SOR that clearly defines the rationale for the
            denial or revocation, with an explanation for each relevant issue that is linked to
            one or more of the 13 adjudicative guidelines. If a response to the SOR is
            received, the information is reviewed by the adjudicator,9 who then determines
            whether the response eliminates or mitigates the issues enough to grant the
            clearance or whether to continue the process of denial or revocation. However,
            the information provided to the individual for preparing the initial response to the
            SOR differs for the two processes (see Basis for the Appeal Process, Basis of
            the Appeal).

            Appeal Decision Authorities and Levels. All applicants have the same
            opportunity to respond to the SOR, the first formal decision to not grant the
            security clearance. For the purpose of describing the events occurring in the two
            processes, we consider the appeal process as beginning when the adjudicator
            determines not to grant a clearance based on the individual’s initial response to
            the SOR and the individual appeals that decision. The two adjudication and
            appeal processes define the start of the appeal process differently. The military
            and civilian process defines the appeal process as starting at the receipt of the
            applicant’s response to the Letter of Denial (LOD), which is the adjudicator’s
            determination to not grant a clearance based on the applicant’s response to the
            SOR. The contractor process defines the appeal process as starting when either
            the applicant or the Department Counsel appeals the AJ decision, which was
            made after the applicant’s second response was received, either in writing or
            through a personal appearance hearing.


8
    This issue was addressed in Inspector General of the Department of Defense Report No. D-2001-065,
    “DoD Adjudication of Contractor Security Clearances Granted by the Defense Security Service,”
    February 28, 2001.
9
    DOHA Department Counsel approves the SOR before its issuance in the contractor process, and a higher-
    graded civilian or higher-ranking military adjudicative official approves the SOR in the military and
    civilian process. DOHA Department Counsel reviews the response to the SOR in the contractor process
    and an adjudicator performs the review in the military and civilian process. For consistency, we consider
    the review of the SOR by the authority that approved its issuance to be part of the adjudicator review by
    the first decision level authority.


                                                       7
                     Contractor                                              Military/Civilian
                   (DoDD 5220.6)                                             (DoD 5200.2-R)


          Adjudicators at both DISCO
          and DOHA review the case1                             Adjudicator at the CAF reviews the case




     Grant         Issues an SOR detailing why               Grant     Issues an SOR detailing why
                   an individual may not receive                       an individual may not receive
                   a security clearance (Department                    a security clearance (Individual
                   Counsel reviews before issued)                      may request the investigative data2)




Individual responds           Individual does            Individual responds             Individual does
to the SOR                    not respond and            to the SOR                      not respond and
                              the clearance                                              the clearance
                              is either denied                                           is either denied
                              or revoked                                                 or revoked

Department Counsel reviews                               Adjudicator reviews
the response to the SOR                                  the response to the SOR


             (Decision Level 1, Adjudicator)                           (Decision Level 1, Adjudicator)


Grant                      Does Not Grant                    Grant             Does Not Grant
                     (Department Counsel develops                           (Adjudicator issues Letter
                     Government case)                                          of Denial [LOD])

                                                         (End of the Adjudication Process as defined by the
                                                         Military and Civilian Adjudication and Appeal
                                                         Process)

1
    The contractor process provided two reviews, one by DISCO and one by DOHA, when DISCO could not
    grant in the first step of the first decision.
2
    The military and civilian process allows the individual to request investigative data upon issuance of the
    SOR. The contractor process provides this information after the decision to not grant is made based on
    the individual’s response to the SOR (see Figure 2).

Figure 1. First Security Clearance Decision Made by the Adjudicator


             The military and civilian process and the contractor process differ from the
             moment that the first formal determination is made to issue an SOR and the
             individual responds, until the final decision is made (Figure 2). The AJs and the
             appeal boards are part of both the contractor process and the military and civilian
             process; however, the role and the decision authority that the AJs and the appeal
             boards play in the contractor process and the military and civilian process differ.
             Also, the contractor process includes an additional decision level.



                                                         8
                     Contractor                                            Military/Civilian
                   (DoDD 5220.6)                                            (DoD 5200.2-R)
                                          Second Decision Level Process

      When the adjudicator/Department Counsel                        When the adjudicator does not grant,
      does not grant, Department Counsel                                  the adjudicator
      develops the Government’s case based on                             issues an LOD
      the SOR (Individual receives pertinent
      investigative data*)(Contact with the
      applicant allows notification of any
      issues mitigated from SOR response)                                 Applicant appeals LOD



Personal appearance                Written appeal             Personal appearance           Written appeal


Applicant, lawyer,               Applicant and            Applicant and a representative        Applicant
witnesses (for and            Department Counsel                                                 submits
against), and                  submit documents                                                 documents
Department Counsel                                             DOHA AJ makes
are involved                                                    recommendation



                  DOHA AJ decides                                  PSAB decides (3-member board)
                  (Decision Level 2)                                    (Decision Level 2)


        Grant                      Deny or Revoke                     Grant                Deny or Revoke

(End of the Adjudication Process as defined by
the Contractor Adjudication and Appeal Process)

                                          Third Decision Level Process

Department Counsel              Individuals appeal
appeals clearances              clearances AJ
AJ granted                      denied or revoked




              DOHA Appeal Board
              (3 DOHA lawyers)
              make legal review
              (Decision Level 3)



Affirm           Remand                Reverse
                (send back      (AJ decision deemed
                to AJ to          not in accordance
                reconsider)       with guidelines)

*
    The contractor process provides the pertinent investigative information when the Department Counsel
    cannot provide the clearance upon review of the individual’s response to the SOR. This information is
    provided, upon the individual’s request, after the issuance of the SOR in the military and civilian process.

Figure 2. Second and Third Decision Levels


                                                         9
            Second Decision Level. When the adjudicator does not grant the
    clearance based on the response to the SOR, all individuals who choose to appeal
    the denial or revocation may do so through a written response or a personal
    appearance before a DOHA AJ. The AJ is a lawyer that independently hears
    cases to weigh the merits of the Government’s security concerns versus an
    individual’s reasons for appeal. In the contractor process, an individual AJ is the
    second decision level authority for both written responses and personal
    appearances, which may be appealed either by the contractor employee or the
    DOHA Department Counsel. If the AJ decision is not appealed, it becomes final.
    On the other hand, in the military and civilian process, if the employee makes a
    personal appearance, the DOHA AJ provides a recommendation to the PSAB,
    which is a three-member board that is the second decision level and final decision
    authority for all appeals.

             Contractor Legal Review at Third Decision Level. The third decision
    level, to appeal the decision of the AJ, occurs only in the contractor employee
    process. If either the contractor employee or the DOHA Department Counsel
    appeals the AJ decision, the DOHA Appeal Board, whose primary objective is to
    review the case for legal error, makes the third decision. DoDD 5220.6 defines
    the DOHA Appeal Board’s scope of review to determine whether the AJ:

           •   supported findings of fact with relevant evidence;

           •   adhered to the procedures required by Exec. Order No. 10865 and
               DoDD 5220.6; or

           •   ruled or reached conclusions that were arbitrary, capricious, or
               contrary to law.

    Individual Decision Authorities and Decision Levels. For military and civilian
    employees, the second and final decision authority is a three-member board. For
    contractor employees, the DOHA Appeals Board is the third decision level
    authority. The purpose of the DOHA Appeal Board is to review the legality of
    the AJ decision, whereas the purpose of the Component PSAB is to make the final
    decision on whether to grant or deny the security clearance.


Appeal Board Members
    Exec. Order No. 12968 requires that appeals be made to a high level panel
    composed of at least three members, two of whom shall be selected from outside
    the security field. The DOHA Appeal Board members are all AJs.

    Defense Personnel Security Research Center (PERSEREC) Technical Report
    No. PERS-TR-95-002, “Appeal Board and Personal Appearance Procedures for
    Adverse Personnel Security Determinations in the Department of Defense,”
    February 1995, provides policy recommendations for PSABs. The report states
    that the PSAB should be composed of three members. One member, a permanent
    president with experience in the field of personnel security, ensures that governing
    personnel security requirements and adjudicative criteria are considered in the


                                        10
        board’s decisions. This member also assures a measure of consistency in a
        board’s decision making process over time. Two members, from non-security
        occupational specialties, reflect concerns that transcend the security field in the
        decision making process. The report states that the PSABs were adopted to
        achieve more independent due process and more consistent treatment for
        individuals appealing an adverse personnel security determination.

        DoD 5200.2-R requires the recommended PSAB configuration. In addition,
        PSABs must have access to legal counsel, which may be achieved by appointing a
        member with a legal background. DoD 5200.2-R establishes seven10 PSABs for
        the following DoD agencies: Army, Navy, Air Force, WHS, Joint Chiefs of Staff,
        Defense Intelligence Agency, and National Security Agency. This report did not
        cover the Joint Chiefs of Staff, the Defense Intelligence Agency, and the National
        Security Agency because the three CAFs combined adjudicated only 1 percent of
        the total FY 2002 cases adjudicated; therefore, the PSABs for these agencies did
        not hear a significant number of cases. (See Appendix E for the specific member
        composition of the four PSABs reviewed.) DoDD 5220.6 requires that the DOHA
        Appeal Board have three AJs, who are attorneys, as full-time members.


Basis for the Appeal Process
        The contractor appeal process has a different basis for the appeal decision than the
        military and civilian process. As we previously discussed, the contractor appeal
        process is based on the SOR, which is generated from the adjudicator’s first
        review of the case file. However, the military and civilian process is based on the
        LOD, which is generated from the adjudicator’s second review of the case file
        when the applicant’s response to the SOR, after being provided pertinent
        investigative data, does not justify the clearance being issued. In addition, the
        contractor appeal process reviews only issues that are identified in the SOR, while
        the military and civilian process reviews the entire case file.

        Basis of the Appeal. Adjudicators at the CAFs adjudicate the information in the
        investigative case file and decide whether to grant access to classified
        information. When the adjudicator issues an SOR, both the contractor process
        and the military and civilian process require a written response if the adjudicator’s
        determination is to be appealed. An adjudicator or Department Counsel (for the
        contractor process) reviews the written response to the SOR to determine whether
        the information provided eliminates or mitigates the issues and whether the
        clearance can be granted. The military and civilian process provides pertinent
        investigative data to the individual for the first response, while the contractor
        process provides the investigative information after the first response has been
        received (Figure 1, footnote 2 and Figure 2, footnote).

                Contractor Process. In the contractor process, the individual’s request
        for a personal appearance hearing must be included in the written response to the
        SOR. If the written response eliminates or mitigates the issues in the SOR, the
10
 DoD 5200.2-R establishes an eighth PSAB under the auspices of the General Counsel, DoD, for
 contractors only. However, DoDD 5220.6 does not establish the DOHA Appeal Board as a
 DoD 5200.2-R designated PSAB.


                                                 11
         clearance can be granted. If the written response does not eliminate or mitigate
         the issues in the SOR, a hearing will be held. If the response does not contain a
         request for a hearing, the individual has an opportunity to submit a second written
         response,11 based upon all relevant and material information in the case file, and
         the case is assigned to an AJ for a final determination based on the written
         responses.

                 Military and Civilian Process. In the military and civilian process, if the
         written response does not eliminate or mitigate the issues in the SOR, the
         individual receives an LOD, stating the final reasons for the denial or the
         revocation decision, as well as methods for appealing the decision. The
         individual then decides whether to appeal the LOD to the Component PSAB.
         When an appeal is made, the employee provides additional documentary evidence
         in response to the remaining issues identified in the LOD to the DOHA AJ in the
         personal appearance hearing or to the PSAB if a hearing is not requested.
         Review of Entire Case File. The uniform Adjudicative Guidelines that resulted
         from the implementation of Exec. Order No. 12968 state that the ultimate
         determination for granting or continuing eligibility for a security clearance must
         be an overall common-sense determination that is based upon careful
         consideration of the 13 adjudicative guidelines, each of which is to be evaluated
         in the context of the whole person, weighing all of the positive and negative
         factors (the whole person concept). The Adjudicative Guidelines specify that
         although adverse information concerning a single criterion may not be sufficient
         for an unfavorable determination, the individual may be disqualified if available
         information reflects a recent or recurring pattern of questionable judgment,
         irresponsibility, or emotionally unstable behavior. Notwithstanding the whole
         person concept, further investigation may be terminated by an appropriate
         adjudicative agency in the face of reliable, significant, disqualifying, adverse
         information.

         The entire case file is not reviewed by the AJ at the second decision level for
         contractor employees as it is for the military and civilian employees by the PSAB.
         The AJ rarely sees the entire contractor employee case file; however, the AJ does
         see the relevant derogatory information that detracts from the contractor
         employee’s explanation or that reflects negatively on his or her credibility. The
         Department Counsel presents the AJ with all of the available information
         supporting the issues that are a security concern as detailed in the SOR for
         contractor employees. The DOHA Appeal Board reviews the factual record, but
         it does not accept any new evidence. In contrast, in the military and civilian
         employee process, the PSAB members review the entire case file before a
         meeting, and the final decision is based on all information from the original
         adverse determination made by the CAF, new or explanatory information
         obtained from the appellant’s desired course of appeal, and discussion of PSAB
         members’ concerns.


11
  If the applicant did not request a hearing in his or her first response to the SOR, the Department Counsel
 provides the applicant with a copy of all relevant and material information and the applicant has 30 days
 to submit a written response. Therefore, even though the contractor process does not issue an LOD,
 contractor employees are allowed to respond after the initial response to the SOR, as are military and
 civilian employees.


                                                     12
Personal Appearance Procedures
    The contractor appeal process and the military and civilian appeal process have
    different personal appearance procedures.

    Contractor Personal Appearance. DoDD 5220.6 creates more specific steps
    and requirements for contractor employee personal appearances than required in
    Exec. Order No. 10865. DoDD 5220.6 establishes that when there is a personal
    appearance in the contractor process, contractor employees must appear before an
    AJ for a hearing with trial-type procedures. The contractor employee can appear
    before an AJ with or without counsel or a personal representative, and invite
    witnesses or present other evidence to rebut, extenuate, mitigate, or explain
    allegations made in the SOR. The DOHA Department Counsel represents the
    Government and presents witnesses and other evidence to establish the facts
    alleged in the SOR. The contractor employee has the opportunity to confront and
    cross-examine each witness. A verbatim transcript of the hearing is included in
    the contractor employee’s case file. The AJ issues a written decision, which
    includes the facts, policies, and conclusions relating to the allegations in the SOR.
    The AJ decision becomes final unless either the individual or the Government
    appeals. Appendix D compares Exec. Order No. 10865 and DoDD 5220.6 and
    identifies those procedural steps that were not specifically required by the
    executive order.

    Military and Civilian Personal Appearance. DoD 5200.2-R, change 3,
    February 23, 1996, implements the personal appearance hearing in the military
    and civilian process after the LOD is issued. DoD 5200.2-R establishes that when
    an individual chooses a personal appearance, the entire case file is forwarded to
    DOHA for review by an AJ. During the personal appearance hearing, the case is
    presented to the AJ by the individual or his or her representative, which may
    include legal counsel. The individual may make an oral presentation and respond
    to questions posed by his or her representative and will respond to questions
    posed by the AJ. The individual may submit documents relating to whether the
    LOD should be overturned, but will not have the opportunity to present or cross-
    examine witnesses. When the hearing is over, the AJ provides a written
    recommendation to the PSAB. That recommendation and a transcript of the case
    become part of the case file provided to the PSAB for a final decision.
    Appendix D compares Exec. Order No. 12968 and DoD 5220.2-R.

    DoD Rationale for Two Personal Appearance Procedures. The DoD Report to
    Congress, “Security Clearance Denial and Revocation Procedures for Department
    of Defense Civilian Employees,” March 1994, which preceded the issuance of
    Exec. Order No. 12968, states that personnel security investigations and
    adjudications are not criminal proceedings. In the report, DoD elected to treat
    military and civilian employees the same for purposes of security clearance
    adjudications and adopted a number of enhanced procedures, including personal
    appearance before a designated official, representation by counsel, and increased
    rights of access to documents upon which a proposed denial or revocation might
    be based. DoD concluded, however, that introducing trial-type hearing
    procedures similar to those enjoyed by contractor employees would be too costly
    and time-consuming.


                                         13
Access to Classified Information When the Clearance is Not
  Granted After the Initial Response to the SOR
        The contractor process allows contractor employees with a security clearance to
        access classified information when the clearance is not granted after the initial
        response to the SOR. The clearance is revoked only when either the AJ or the
        DOHA Appeal Board makes the final determination. Only USD(I) may suspend a
        contractor employee’s clearance during the appeal process with concurrence of the
        General Counsel, DoD. However, military and civilian security clearances that
        are questionable must be suspended when the LOD is issued if the commander or
        head of the organization has not previously suspended them.

        Contractor Process. Exec. Order No. 10865 does not directly address
        suspension of access while awaiting the final decision. Section 3 states that,
        except as provided in section 9, an authorization for access to classified
        information cannot be finally denied or revoked absent the procedural safeguards
        specified in the order. Exec. Order No. 10865, section 9, states:
                      Nothing contained in this order shall be deemed to limit or affect the
                      responsibility and powers of the head of the Department to deny or
                      revoke access to a specific classification category if the security of the
                      nation so requires. Such authority may not be delegated and may be
                      exercised only when the head of a Department determines that the
                      procedures prescribed in sections 3, 4, and 512 cannot be invoked
                      consistently with national security and such determination shall be
                      conclusive.

        DoDD 5220.6 establishes a process to suspend access of contractor employees
        that have a security clearance prior to the final security clearance decision and
        places the suspension authority as the USD(I), with concurrence of the General
        Counsel, DoD. However, the directive does not require that access to classified
        information by contractors be suspended until the appeal has been completed if
        the Department Counsel cannot grant the clearance based on the individual’s
        response to the SOR. DoDD 5220.6, subsection 6.4, states:
                      Whenever there is a reasonable basis for concluding that an applicant’s
                      continued access to classified information poses an imminent threat to
                      national interest, any security clearance held by the applicant may be
                      suspended by the ASD(C3I) [Assistant Secretary of Defense
                      (Command, Control, Communications, and Intelligence)], with
                      concurrence of the GC [General Counsel], DoD, pending a final
                      clearance decision. This suspension may be rescinded by the same
                      authorities upon presentation of additional information that
                      conclusively demonstrates that an imminent threat to the national
                      interest no longer exists. Procedures in enclosure 3 shall be expedited
                      whenever an applicant’s security clearance has been suspended
                      pursuant to this subsection.


12
 Section 3 covers the appeal process, section 4 deals with the opportunity to cross-examine persons that
 have made oral or written statements adverse to the individual, and section 5 pertains to records and
 physical evidence.


                                                    14
      Military and Civilian Process. Change 3 to DoD 5200.2-R, February 23, 1996,
      establishes that the commander or head of the organization may suspend a
      security clearance for access to classified information and assign the individual to
      nonsensitive duties when the SOR is issued; however, the regulation requires the
      security clearance to be revoked when the LOD is issued if it had not been
      suspended when the SOR was issued.


Degree of Independence of Decision Authorities
      The contractor process does not use the separation of the adjudication and the
      appeal decision authorities that is required by the military and civilian process.

      Contractor Organizational Structure. The Director, DOHA, supervises all
      DOHA operations and is responsible for administering the Defense Industrial
      Personnel Security Clearance Review Program. DoDD 5220.6 states that the AJs
      and the appeal board members will have the requisite independence to render fair
      and impartial decisions consistent with DoD policy. The PERSEREC Technical
      Report 93-6, “Due Process for Adverse Personnel Security Determinations in the
      DoD,” September 1993, states that for appeals by Defense contractor employees,
      the adjudicators, the AJs, and the members of the appeal board function
      independently. Further, the report states that the appeal board controls against
      bias, especially from superior authority, because it has three members, and that
      the legal staff at DOHA is highly trained and cognizant of its responsibility to
      decide cases without bias. The report states that the Director, DOHA, has
      administrative responsibility for these functions, but is not directly involved in
      substantive matters related to specific cases. The director performs the second-
      level review for all adjudicators, AJs, and department counsel representatives; the
      director is also the first-level reviewer for the Chief AJ; the Chief, Department
      Counsel; and all three appeal board members (Figure 3).


                                     Director

                                                                       Administrative
                                                                         Officer

    Chief,          Chief,           Chief          Chairman,
  Personnel       Department        Judge,           Appeal             Chief,
   Security        Counsel          Hearing          Board              Claims
  Division                          Office                              Division

                                                                        Alternate
 Adjudicators        Trial            AJs            AJs                Dispute
                   Attorneys                                            Resolution
                                                                        Office


Figure 3. DOHA Organizational Chart



                                              15
Military and Civilian Organizational Structure. The adjudicative decision
authorities for the military and civilian process are the adjudicators and the PSAB
members. Adjudicators are employee positions located in the CAFs of the
pertinent Components. PSAB members are “as needed” positions, so their service
on the board is in addition to their regular duties.

DoD 5200.2-R requires each Component that has a CAF to also have a PSAB that
is separate from its respective CAF. The relationship between the CAF and its
PSAB is administrative in that once an appeal is made, any case documents
needed by the PSAB are forwarded by the CAF. DoD 5200.2-R specifically
states that officials from the CAF will neither serve as members of the board nor
communicate with board members concerning the merits of an open case. The
PSAB either sustains or overturns the original determination of the CAF;
therefore, it must be separate.

One of the four PSABs that we reviewed was not completely separate from the
CAFs, but was not connected organizationally by more than one of the three
members. The Army, Navy and Air Force CAFs and PSABs are in separate
organizations, but the PSAB presidents’ position in the WHS is within the same
organization as the CAF, as shown in the table.


                  Organizational Relationship of CAF and PSAB Presidents


                       CAF Adjudicators                             PSAB President
 Army        Intelligence and Security Command         Assistant Secretary of the Army
                                                       (Manpower and Reserve Affairs)

 Navy        Naval Criminal Investigative Service1     Office of the Chief of Naval Operations
                                                       Special Assistant for Naval Investigative
                                                       Matters and Security1
                                                       Assistant for Information and Personnel
                                                       Security2

 Air Force   Secretary of the Air Force                Judge Advocate General
             Administrative Assistant
                                                       General Law Division

 WHS         Directorate for Personnel Security        Directorate for Personnel Security
                                                       Security Directorate


 1
 The same individual fills both positions.
 2
 This individual is also the Deputy Assistant Director, Information and Personnel Security
 Programs, Naval Criminal Investigative Service.




                                          16
DoD Rationale for Two Adjudication and Appeal Processes
    The two processes continue to exist because DoD did not develop a single process
    for military, civilian, and contractor employees when implementing Exec. Order
    No. 12968. The DoD Report to Congress, “Security Clearance Denial and
    Revocation Procedures for Department of Defense Civilian Employees,”
    March 1994, resulted from a partial review of the military and civilian process in
    response to section 1183 of the National Defense Authorization Act for FY 1994,
    which required the Secretary of Defense to conduct a review of the procedural
    safeguards available to DoD civilian employees that are facing denial or
    revocation of security clearances. However, DoD reviewed only whether military
    and civilians could be given the same process as contractor employees.

    DoD military and civilian employees receive disparate treatment in that contractor
    employees are afforded more due process rights in the adjudication and appeal
    process. The DoD Report to Congress, March 1994, also states that DoD assumes
    that, for a contractor employee, the denial or revocation of a clearance was more
    likely to result in loss of current employment, while a DoD civilian employees
    was more likely to be employed in another position not requiring a security
    clearance. For this reason, the report states that contractor employees have a
    greater interest in additional procedural safeguards than DoD civilians. However,
    within DoD this may no longer be the case because downsizing, in the 1990s,
    greatly reduced the ability of military and civilian employees to be employed in
    positions that do not require a security clearance. Consequently, the denial or
    revocation of a security clearance is also likely to result in a loss of current
    employment for military and civilian employees as well as for contractor
    employees.


Conclusion
    Whether an individual is a contractor, a civilian, or a military employee, the DoD
    security clearance allows access to the same categories of information. Therefore,
    access requirements and the application of the adjudicative guidelines for DoD
    security clearances should be consistent regardless of the process through which
    the clearance is received. Additionally, DoD may not be achieving the
    efficiencies and benefits that would be derived from a single consistent
    adjudication and appeal process for obtaining a security clearance. Policymakers
    need to consider the fundamental fairness of affording civilian and military
    employees with fewer due process rights than contractor employees.

    Currently the military and civilian adjudication process ends upon the individual’s
    first written response to the SOR and the first decision level authority’s final
    determination to grant a clearance or issue an LOD. However, the contractor
    process does not end the adjudication process until the second decision level
    authority’s final determination after the individual’s second written response to the
    SOR or the personal appearance hearing. In addition, more than 40 years have
    passed since the contractor process was developed for Exec. Order No. 10865, and
    DoD is facing new security challenges, in the homeland and abroad, as evidenced


                                         17
    by the September 11, 2001, terrorist attacks and threats from countries that have
    weapons of mass destruction. Therefore, we believe that DoD needs to establish a
    single, consistent adjudication and appeal process for obtaining a DoD security
    clearance for military, civilian, and contractor employees by reengineering the
    entire process and developing a single directive or regulation for the process.

    Recommendations are in line with an ongoing Business Initiative Council
    initiative to improve the efficiency of the Personnel Security Investigation
    process. The Business Initiative Council was established by the Secretary of
    Defense on June 18, 2001, with the mission to improve the efficiency of the DoD
    business operations by identifying and implementing business reform actions,
    which allow savings to be reallocated to higher efforts. The Under Secretary of
    Defense for Acquisition, Technology, and Logistics is the Chairman of the
    Business Initiative Council.

    The Business Initiative Council approved the sixth set of initiatives on
    September 4, 2002. One of the initiatives is “Reengineering Personnel Security
    Investigation,” which seeks relief to the burdensome and slow processes
    associated with conducting personnel security investigations. The Business
    Initiative Council is engaged in a two-phased approach relating to that initiative,
    which initially includes gathering quick-fix remedies to obstacles. After
    implementing the quick-fix remedies, the second phase will review and redesign
    the end-to-end process, from request to adjudication. The reengineering effort is
    expected to improve timeliness and reduce long-term costs. We believe this
    report, as well as other Inspector General of the Department of Defense (IG DoD)
    reports on the DoD personnel security process identified in Appendix B, will
    greatly assist the Business Initiative Council in its endeavor to reengineer the
    personnel security investigative process.


Management Comments on the Finding and Audit Response
    Under Secretary of Defense for Intelligence Comments. The Deputy Assistant
    Secretary of Defense (Security and Information Operations), responding for the
    Under Secretary of Defense for Intelligence, states that the report lacks clarity and
    leads to a misunderstanding of the adjudicative process. The Deputy Assistant
    Secretary states that DoD has a major effort underway to improve its personnel
    security program and that a review of the adjudication process, targeted for
    completion in the fall, was part of that review. The Deputy Assistant Secretary
    also states that DoD had proposed changes to the adjudication guidelines to the
    interagency group reviewing personnel security policy issues, and that Congress
    has proposed tasking the Secretary of Defense and the Director, Central
    Intelligence Agency to submit a joint report on the usefulness and effectiveness of
    the security background investigations and security clearance procedures.

    Audit Response. The Deputy Assistant Secretary of Defense did not specify
    what was unclear in the report and what would lead to a misunderstanding of the
    adjudicative process. The initiatives that the Deputy Assistant Secretary of
    Defense alluded to concerning the personnel security program are encouraging;
    however, she did not state whether those initiatives will ensure that all parties—


                                         18
civilian, military, and contractor employees—will receive equal treatment in the
adjudication and appeal process. The main theme of our report is that two
separate processes currently result in disparate treatment for contractor employees
and civilian and military employees, even though a DoD security clearance allows
them access to the same categories of information, given that they each have a
valid need-to-know.

General Counsel Comments. The DoD Deputy General Counsel (Legal
Counsel), responding for the General Counsel, DoD, states that “the analysis
contained in the report is fundamentally flawed and infused with major factual
errors and misconceptions.” The Deputy General Counsel (Legal Counsel) states
further that the report makes a fundamental error in describing the adjudication
and appeal process—specifically in comparing the procedures available to
contractor employees versus military and civilian employees. He states that the
report erroneously equates a contractor employee’s case being referred for further
processing with issuing an LOD to military and civilian employees, leading to a
conclusion that an extra step exists in one of the processes, which the Deputy
General Counsel (Legal Counsel) concludes “is incorrect as a matter of fact and
as a matter of law, and this error alone essentially destroys the value of the
analysis contained in the report.” The Deputy General Counsel (Legal Counsel)
also states that the report “presents a misleading description of the organization
and legal structure of the adjudication facilities within the Department.” He states
that Component adjudication facilities and DOHA operate under rules and in an
environment that protects their impartiality and independence from improper
efforts to influence decisions in individual cases. He states that both
organizational approaches are legally sound.

Audit Response. The comments provided by the DoD Deputy General Counsel
(Legal Counsel), include a statement that equating referral of “. . . a contractor
employee’s case for further processing and issuing a Letter of Denial to
government employees and military personnel” is “incorrect as a matter of fact
and as a matter of law. . . .” The Deputy General Counsel (Inspector General)
reviewed the recommendations contained in this audit report and found no legal
problems with those recommendations. At the direction of the Inspector General,
the Deputy General Counsel (Inspector General) gave the Deputy General
Counsel (Legal Counsel) an opportunity to support or clarify this statement. The
Deputy General Counsel (Legal Counsel) declined the opportunity.

In response to the comments of the Deputy General Counsel (Legal Counsel), the
Deputy General Counsel (Inspector General) opined:
           The Deputy General Counsel (Legal Counsel) takes no issue with the
           fact that two separate processes result in disparate treatment for
           contractor employees versus civilian and military personnel of the
           Department of Defense (i.e., fewer due process rights for DoD
           personnel). Just as the Supreme Court found that additional due
           process must be afforded to contractor employees who could be
           deprived of their employment when denied a security clearance, DoD
           personnel likewise have their employment at risk in such
           circumstances. Therefore, policymakers should consider providing the
           same due process to DoD personnel.



                                       19
    In our analysis of the adjudication and appeal processes, we consider a decision to
    have occurred whenever the decision level authority had the ability to grant a
    clearance, even if the decision level authority did not have the ability to deny a
    clearance. In that context, when comparing the number of times a decision to
    grant a clearance can be made, the contractor process allows an additional
    opportunity for a decision.

    In response to the Deputy General Counsel (Legal Counsel)’s comments on the
    report’s description of the contractor versus military and civilian organizational
    and legal structure, the report identifies the two different structures and states that
    DoD 5200.2-R requires the separation of the CAFs and the PSABs in the military
    and civilian process. Further, the report does not imply that one organizational
    structure is more sufficient or legally sound than the other.


Recommendations, Management Comments, and Audit
  Response
    We recommend that the Under Secretary of Defense for Intelligence, in
    coordination with the General Counsel, DoD:

            1. Reengineer the adjudication and appeal process by establishing a
    single, common security clearance process for military, civilian, and
    contractor employees.

    Under Secretary of Defense for Intelligence Comments. The Deputy Assistant
    Secretary of Defense (Security and Information Operations), responding for the
    Under Secretary of Defense for Intelligence, nonconcurred stating that the
    recommendation was generic and applicable to almost every Government
    program and that the report does not offer a persuasive basis to establish a single
    process. However, as discussed under Management Comments on the Finding,
    the Deputy Assistant Secretary of Defense, in discussing several initiatives
    underway to improve the adjudication process and the personnel security program
    as a whole, concurred that a review of the process is appropriate.

    General Counsel Comments. The DoD Deputy General Counsel (Legal
    Counsel), responding for the General Counsel, DoD, concurred that a review of
    the adjudication and appeal process is appropriate, but did not concur with the
    recommendation that a single process applicable to civilian and military as well as
    contractor employees must result. The Deputy General Counsel states that the
    report notes that the contractor process differs from the process for civilian and
    military employees, but provides no rationale for the need to unify them. The
    Deputy General Counsel states that contractor employees have a different legal
    status from civilian and military employees, and that the procedures available to
    contractor employees in a wide range of dealings with the Government differ
    significantly from those individuals who have a direct employment relationship
    with the Government.

    Audit Response. The Deputy Assistant Secretary of Defense (Security and
    Information Operations) and the Deputy General Counsel comments were


                                          20
partially responsive in agreeing that the adjudication and appeal process needs
review. Furthermore, the initiatives described by the Deputy Assistant Secretary
that are underway seem particularly encouraging. Our primary concern is that the
existing processes result in disparate treatment for individuals that are granted
access to the same classified information. Any review and reengineering of the
adjudication and appeal process should result in a process that provides equal
treatment for all parties—military and civilian employees and contractor
employees. In addition, the new security challenges facing DoD necessitate an
effective and efficient adjudication and appeal process. We believe that the most
efficient and effective way to ensure equal treatment for all employees is through
a single adjudication and appeal process. In response to this report, we request
that the Under Secretary for Intelligence and the General Counsel, DoD, provide
comments that explain whether the ongoing reviews or those planned will result
in an adjudication and appeals process that achieves equality for all parties—
civilian, military, and contractor employees.

       2. Develop a single directive or regulation for the DoD security
clearance process.

Under Secretary of Defense for Intelligence Comments. The Deputy Assistant
Secretary of Defense (Security and Information Operation), responding for the
Under Secretary of Defense for Intelligence, nonconcurred that a single directive
or regulation is appropriate. The Deputy Assistant Secretary states that the
recommendation was generic and applicable to almost every Government program
and that the report does not offer a persuasive basis to establish a single directive.

General Counsel Comments. The DoD Deputy General Counsel (Legal
Counsel), responding for the General Counsel, DoD, concurred that a review of
the regulations governing the security clearance process is appropriate but
nonconcurred that a single directive or regulation applicable to military and
civilian employees and contractor employees must result. The Deputy General
Counsel states that the current regulatory structure appears to work well and does
not cause confusion among those who use the regulations.

Audit Response. The Deputy Assistant Secretary of Defense (Security and
Information Operation) comments were partially responsive. Although not
specifically stated, the Deputy Assistant Secretary comments relating to ongoing
reviews of the adjudication and personnel security process imply that the
regulations governing the security clearance process would also be reviewed. The
DoD Deputy General Counsel (Legal Counsel) comments were partially
responsive in agreeing that a review of the regulations governing the security
clearance process was in order. As stated in our audit response to
Recommendation 1., our main objective is to achieve a process that treats all
parties that are entrusted with the same information equally. We believe a single
process, implemented by a single directive or regulation, is the best way to
achieve that end. In response to this report, we request that the Under Secretary
of Defense for Intelligence and the General Counsel, DoD, comment specifically
on the merits of a single directive or regulation for the DoD security process and
explain why that approach would not be the most logical as well as the most
efficient and effective way to ensure an equitable appeals and adjudication
process for all parties.


                                     21
Appendix A. Scope and Methodology
   We reviewed the executive orders, implementing guidance, studies, pertinent
   reports, and the operations of the eight CAFs for the adjudication and appeal
   processes for military, civilian, and contractor employees. We also reviewed the
   operation and makeup of four of the seven PSABs and the DOHA Appeals Board.
   In addition, we obtained the adjudication statistics for the CAFs from the
   FYs 2001 and 2002 Spend Plan reports.

   We performed this audit from May 2000 through April 2003 in accordance with
   generally accepted government auditing standards.

   We did not review the management control program related to the overall audit
   objective because DoD recognized the personnel security investigations program
   as a material weakness in its FY 2000 Statement of Assurance and its FY 2002
   Performance and Accountability Report.

   To determine the differences in the military and civilian and the contractor
   adjudication and appeal processes for being granted or denied a DoD security
   clearance, we compared the specific steps and decision levels in the appeal
   processes with the executive orders to determine the differences generated by the
   executive orders and those generated by DoDD 5220.6 and DoD 5200.2-R that
   implement the executive orders. We also reviewed studies by the PERSEREC
   that reviewed personnel security clearance adjudicative information and other
   pertinent reports.

   The audit project leader participated in the Personnel Security Overarching
   Integrated Process Team, established by the Deputy Secretary of Defense on
   November 30, 1999, to “Pioneer a different path to solve the crisis of the
   continuing personnel security investigations backlog, and sell it,” and the
   Personnel Security Investigation Process Review Team, established by the
   Deputy Secretary of Defense on June 1, 2000, to clearly baseline the current
   status of reforming the personnel security investigation process, to determine
   when the process is expected to get well, and to provide any recommendations to
   expedite the reform effort. The scope of the audit was not limited in this regard
   because neither team reviewed the specific steps of the adjudication and appeal
   process.

   We did not use computer-processed data to perform this audit.

   General Accounting Office High-Risk Area. The General Accounting Office
   has identified several high-risk areas in the Department of Defense. This report
   provides coverage of the Strategic Human Capital Management high-risk area.




                                       22
Appendix B. Prior Coverage
    During the last 10 years, the General Accounting Office (GAO) issued 3 reports;
    the IG DoD issued 12 reports; the PERSEREC issued 7 reports; and the Joint
    Security Commission II, the Commission on Protecting and Reducing
    Government Secrecy, and the Joint Security Commission issued 1 report each on
    the DoD Personnel Security Program. Unrestricted GAO reports can be accessed
    over the Internet at http://www.gao.gov. Unrestricted IG DoD reports can be
    accessed at http://www.dodig.osd.mil/audit/reports.


GAO
    GAO Report No. GAO-01-465, “DoD Personnel: More Consistency Needed in
    Determining Eligibility for Top Secret Security Clearances,” April 18, 2001

    GAO Report No. NSIAD-00-215, “DoD Personnel: More Actions Needed to
    Address Backlog of Security Clearance Reinvestigations,” August 24, 2000

    GAO Report No. NSIAD-00-12, “DoD Personnel: Inadequate Personnel Security
    Investigations Pose National Security Risks,” October 27, 1999


IG DoD
    IG DoD Report No. D-2003-112, “Homeland Security: Contracting Practices of
    the Defense Security Service for Personnel Security Investigations,” June 27,
    2003 (FOR OFFICIAL USE ONLY)

    IG DoD Report No. D-2001-136, “Defense Clearance and Investigations Index
    Database,” June 7, 2001

    IG DoD Report No. D-2001-112, “Acquisition Management of the Joint
    Personnel Adjudication System,” May 5, 2001

    IG DoD Report No. D-2001-065, “DoD Adjudication of Contractor Security
    Clearances Granted by the Defense Security Service,” February 28, 2001

    IG DoD Report No. D-2001-019, “Program Management of the Defense Security
    Service Case Control Management System,” December 15, 2000

    IG DoD Report No. D-2001-008, “Resources of DoD Adjudication Facilities,”
    October 30, 2000

    IG DoD Report No. D-2000-134, “Tracking Security Clearance Requests,”
    May 30, 2000



                                       23
   IG DoD Report No. D-2000-111, “Security Clearance Investigative Priorities,”
   April 5, 2000

   IG DoD Report No. D-2000-072, “Expediting Security Clearance Background
   Investigations for Three Special Access Programs” (U), January 31, 2000
   (SECRET)

   IG DoD Report No. 98-124, “Department of Defense Adjudication Program,”
   April 27, 1998

   IG DoD Report No. 98-067, “Access Reciprocity Within DoD Special Access
   Programs” (U), February 10, 1998 (CONFIDENTIAL)

   IG DoD Report No. 97-196, “Personnel Security in the Department of Defense,”
   July 25, 1997


PERSEREC
   PERSEREC, Technical Report 02-4, “Quality Assurance in Defense
   Adjudication: An Adjudicator Workshop for Defining and Assessing Quality,”
   March 2003

   PERSEREC, Technical Report 00-4, “Security Clearances and the Protection of
   National Security Information Law and Procedures,” November 2000

   PERSEREC, Technical Report 00-2, “Adjudicative Guidelines and Investigative
   Standards in the Department of Defense,” September 2000

   PERSEREC, Technical Report 00-1, “An Analysis of Clearance Review
   Decisions by the Defense Office of Hearings and Appeals,” September 2000

   PERSEREC, PERS-TR-95-002, “Appeal Board and Personal Appearance
   Procedures for Adverse Personnel Security Determinations in the Department of
   Defense,” February 1995

   PERSEREC, PERS-TR-94-002, “Standardizing Procedures for Notifying
   Individuals of an Adverse Personnel Security Determination in the Department of
   Defense,” September 1994

   PERSEREC, Technical Report-93-6, “Due Process for Adverse Personnel
   Security Determinations in the DoD,” September 1993




                                     24
Other Reports
    Joint Security Commission II, “Report of the Joint Security Commission II,”
    August 24, 1999

    Commission on Protecting and Reducing Government Secrecy, Senate
    Document 105-2, “Report of the Commission on Protecting and Reducing
    Government Secrecy,” March 3, 1997

    Joint Security Commission, “Redefining Security,” February 28, 1994




                                       25
Appendix C. Congressional Request




                     26
27
Appendix D. Comparison of Executive Order
            Nos. 12968 and 10865,
            DoD 5200.2-R and DoDD 5220.6
       Authorization for access may not be finally denied or revoked unless the
       individual has been given the following. The section references for each
       document are provided in Appendixes D1 through D4.

                                                    Military and Civilian       Contractor
                                                     Exec.                    Exec.
                                                    Order        DoD          Order DoDD
                                                    12968      5200.2-R       10865 5220.6
                                                     (D1)        (D2)          (D3)    (D4)

Provided a written SOR as to why access             5.2(a)(1)   8-201.a.      3(1)   4.3.1.
may be denied or revoked.                                                            E3.1.3.

Provided any documents, records, and reports 5.2(a)(2)          8-201.a.             E3.1.7.
upon which a denial or revocation is based.                                          E3.1.13.
(CAFs provide evidence upon the individual’s
request for answering the SOR, see
DoD 5200.2-R. Department Counsel provides
evidence to all individuals after response to
the SOR, see DoDD 5220.6.)

Provided the opportunity to reply in writing        5.2(a)(4)   8-201.b.      3(2)   4.3.2.
to the SOR.                                                                          E3.1.4.

Review the applicant’s answer to the SOR.           5.2(a)(5)   8-201.c.             E3.1.6.

Provided written response stating the final         5.2(a)(5)   8-201.c.
reason(s) for the unfavorable results of the
review (LOD).

Provided the identity of the deciding               5.2(a)(5)
authority.

Provided the opportunity to appeal (the LOD 5.2(a)(4)           8-201.d.
to the PSAB).                               5.2(a)(5)

No Hearing
   Provided an opportunity to appeal                5.2(a)(6)    8-201.d.            E3.1.7.
   (respond) in writing                                         8-201.d.(1)



                                               28
                                                Military and Civilian     Contractor
                                                 Exec.                  Exec.
                                                 Order       DoD        Order DoDD
                                                 12968 5200.2-R         10865 5220.6
                                                  (D1)       (D2)        (D3)    (D4)

  Appeal to a high level panel, which shall 5.2(a)(6) 8-201.d.(1)
                                                       8-201.d.
  be composed of at least three members,
  two of whom shall be selected from
  outside the security field.
  If the applicant or Department Counsel                                       E3.1.7.
  has not requested a hearing, the case shall
  be assigned to an AJ for a clearance
  decision based on the written record.

Hearing
  Provided an opportunity to be                 5.2(a)(3) 8-201.a.(1)   3(5)    4.3.4.
  represented by counsel or other                           N-5.a.
  representative at own expense.

  Provided an opportunity to appear             5.2(a)(7) 8-201.d.(2)   3(3)    4.3.4.
  personally and to present relevant                        N-5.b.             E3.1.3.
  documents, materials, and information                     N-5.c.             E3.1.8.
  (evidence).                                                                  E3.1.15.

  Department Counsel is responsible for                                        E3.1.14.
  presenting witnesses and other evidence
  to establish facts alleged in the SOR that
  have been controverted.

  The applicant is responsible for                                             E3.1.15.
  presenting witnesses and other evidence
  to rebut, explain, extenuate, or mitigate
  facts admitted by the applicant or proven
  by Department Counsel.

  An opportunity to cross-examine persons                               3(6)    4.3.3.
  either orally or through written                                      4(a)   E3.1.16.
  interrogatories (who have made oral or
  written statements adverse to the
  applicant relating to a controverted issue)
  on matters not relating to the
  characterization in the SOR of any
  organization or individual other than the
  applicant.



                                           29
                                                    Military and Civilian       Contractor
                                                     Exec.                    Exec.
                                                     Order       DoD          Order DoDD
                                                     12968 5200.2-R           10865 5220.6
                                                      (D1)       (D2)          (D3) (D4)


   The appellant will not have the                                N-5.d.
   opportunity to present or cross-examine
   witnesses.

   The SOR may be amended at the hearing                                             E3.1.17.
   by the AJ.

   The Federal Rules of Evidence shall                                               E3.1.19.
   serve as a guide. Relevant and material
   evidence may be received subject to
   rebuttal, and technical rules of evidence
   may be relaxed to permit the
   development of a full and complete
   record.

   A verbatim transcript shall be made part 5.2(a)(7)                                E3.1.24.
   of the applicant’s or employee’s security
   record (unless such an appearance occurs
   in the presence of the appeals panel).

   AJ provides a recommendation to the                          8-201.d.(2)
   PSAB.                                                           N-6

Provided a written notice of the final              5.2(a)(6)    8-201.e.     3(7)    4.3.5.
decision.                                                          N-6.              E3.1.25.
(PSAB decision for Exec. Order No. 12968
and DoD 5200.2-R, but the AJ decision for
DoDD 5220.6.)

The applicant or the Department Counsel                                              E3.1.28.
may appeal the AJ decision.

The Appeal Board shall be provided the case                                          E3.1.29.
record. No new evidence shall be received
or considered.

The appeal brief, submitted to the Appeal                                            E3.1.30.
Board, must state the specific issue or issues
being raised, and cite specific portions of the
case record supporting any alleged error.


                                               30
                                                   Military and Civilian     Contractor
                                                    Exec.                  Exec.
                                                    Order       DoD        Order DoDD
                                                    12968 5200.2-R         10865 5220.6
                                                     (D1)       (D2)        (D3)    (D4)

A written reply brief may be submitted.                                          E3.1.30.

The Appeal Board shall address the material                                      E3.1.32.
issues raised by the parties to determine
whether harmful error occurred.

The Appeal Board shall issue a written                                           E3.1.33.
clearance decision addressing the material                                       E3.1.34.
issues raised on appeal. A copy shall be
provided to the parties.

A clearance decision is considered final                                         E3.1.36.
when the Appeal Board affirms or reverses
the AJ clearance decision so a clearance is
granted or denied.

Upon remand, the case file shall be assigned                                     E3.1.35.
to an AJ for correction of error(s) in
accordance with the Appeal Board’s
clearance decision. The assigned AJ shall
make a new clearance decision that shall be
provided to the parties. The clearance
decision after remand may be appealed.




                                              31
Appendix D1. Executive Order No. 12968,
             Section 5.2(a)
   Sec. 5.2. Review Proceedings for Denials or Revocations of Eligibility for
   Access. (a) Applicants and employees who are determined to not meet the
   standards for access to classified information established in section 3.1 of this
   order shall be:

   (1) provided as comprehensive and detailed a written explanation of the basis
   for that conclusion as the national security interests of the United States and other
   applicable law permit;
   (2) provided within 30 days, upon request and to the extent the documents would
   be provided if requested under the Freedom of Information Act (5 U.S.C. 552) or
   the Privacy Act (3 U.S.C. 552a), as applicable, any documents, records, and
   reports upon which a denial or revocation is based;

   (3) informed of their right to be represented by counsel or other representative at
   their own expense; to request any documents, records, and reports as described in
   section 5.2 (a) (2) upon which a denial or revocation is based; and to request the
   entire investigative file, as permitted by the national security and other applicable
   law, which, if requested, shall be promptly provided prior to the time set for a
   written reply;

   (4) provided a reasonable opportunity to reply in writing to, and to request a
   review of, the determination;

   (5) provided written notice of and reasons for the results of the review, the
   identity of the deciding authority, and written notice of the right to appeal;

   (6) provided an opportunity to appeal in writing to a high level panel, appointed
   by the agency head, which shall be comprised of at least three members, two of
   whom shall be selected from outside the security field. Decisions of the panel
   shall be in writing, and final except as provided in subsection (b) of this section;
   and

   (7) provided an opportunity to appear personally and to present relevant
   documents, materials, and information at some point in the process before an
   adjudicative or other authority, other than the investigating entity, as determined
   by the agency head. A written summary or recording of such appearance shall be
   made part of the applicant’s or employee’s security record, unless such
   appearance occurs in the presence of the appeals panel described in
   subsection (a)(6) of this section.




                                        32
Appendix D2. DoD 5200.2-R, Section 8-201 and
             Appendix N
   8-201 Unfavorable Administrative Action Procedures

   Except as provided for below, no unfavorable administrative action shall be taken
   under the authority of this Regulation unless the individual concerned has been:

           a. Provided a written statement of the reasons (SOR) as to why the
   unfavorable administrative action is being taken in accordance with the example
   at Appendix L, which includes sample letters and enclosures. The SOR shall be
   as comprehensive and detailed as the protection of sources afforded
   confidentiality under provisions of the Privacy Act of 1974 (reference (m)) and
   national security permit. The statement will contain, 1) a summary of the security
   concerns and supporting adverse information, 2) instructions for responding to the
   SOR and 3) copies of the relevant security guidelines from Appendix I. In
   addition, the CAF will provide within 30 calendar days, upon request of the
   individual, copies of releasable records of the personnel security investigation
   (the CAF must retain copies of the file for at least 90 days to ensure the ready
   availability of the material for the subject). If the CAF is unable to provide
   requested documents for reasons beyond their control, then the name and address
   of the agency (agencies) to which the individual may write to obtain a copy of the
   records will be provided.

                   (1) The head of the local organization of the individual receiving
   an SOR shall designate a point of contact (POC) to serve as a liaison between the
   CAF and the individual. The duties of the POC will include, but not necessarily
   be limited to, delivering the SOR, having the individual acknowledge receipt of
   the SOR, determining whether the individual intends to respond within the time
   specified; ensuring that the individual understands the consequences of the
   proposed action as well as the consequences for failing to respond in a timely
   fashion; explaining how to obtain time extensions, procure copies of investigative
   records, and the procedures for responding to the SOR; and ensuring that the
   individual understands that he or she can obtain legal counselor [sic] other
   assistance at his or her own expense.

           b. Afforded an opportunity to reply in writing to the CAF within
   30 calendar days from the date of receipt of the SOR. Failure to submit a timely
   response will result in forfeiture of all future appeal rights with regard to the
   unfavorable administrative action. Exceptions to this policy may only be granted
   by the CAP [Component CAF] in extraordinary circumstances where the
   individual’s failure to respond to the SOR was due to factors beyond his or her
   control. The CAP must be notified of the individual’s intent to respond, via the
   POC, within 10 calendar days of receipt of the SOR. An extension of up to
   30 calendar days may be granted by the employing organization following
   submission of a written request from the individual. Additional extensions may
   only be granted by the CAP. Responses to the CAP must be forwarded through
   the head of the employing organization.



                                       33
        c. Provided a written response by the CAP to any submission under
subparagraph b. stating the final reason(s) for the unfavorable administrative
action, which shall be as specific as privacy and national security considerations
permit and in accordance with the example of a letter of denial (LOD) and its
enclosures at Appendix L. Such response shall be as prompt as individual
circumstances permit, not to exceed 60 calendar days from the date of receipt of
the response submitted under subparagraph b., above, provided no additional
investigative action is necessary. If a final response cannot be completed within
the time frame allowed, the individual must be notified in writing of this fact, the
reasons therefore, and the date a final response is expected, which shall not
normally exceed a total of 90 days from the date of receipt of the response under
subparagraph b.

       d. Afforded an opportunity to appeal an LOD, issued pursuant to
paragraph c. above, to the component Personnel Security Appeals Board (PSAB).
The PSAB shall consist of a minimum of three members and function in
accordance with Appendix M. If a decision is made to appeal the LOD, the
individual may do so by one of the following methods:

               (1) Appeal Without a Personal Appearance: Advise the PSAB
within 10 calendar days of receipt of the LOD, of the intent to appeal. Within
40 calendar days of receipt of the LOD, write to the appropriate PSAB stating
reasons why the LOD should be overturned and providing any additional relevant
information that may have a bearing on the final decision by the PSAB;

               (2) Appeal With a Personal Appearance: Advise the Defense
Office of Hearings and Appeals (DOHA within 10 calendar days of receipt of the
LOD that a personal appearance before a DOHA Administrative Judge (AJ) is
desired in order to provide additional, relevant information which may have a
bearing on the final decision by the PSAB. DOHA will promptly schedule a
personal appearance and will provide a recommendation to the PSAB generally
within 60 days of receipt of the notice requesting the personal appearance.
Procedures governing the conduct of the personal appearance before a DOHA AJ
are contained at Appendix N.

        e. Provided a final written decision by the PSAB, including a rationale,
to any submission under subparagraph d., above, stating the final disposition of
the appeal. This will normally be accomplished within 60 calendar days of
receipt of the written appeal from the individual if no personal appearance was
requested, or within 30 calendar days from receipt of the AJ’s recommendation if
a personal appearance was requested.

Appendix N, Conduct of a Personal Appearance Before an Administrative
Judge (AJ)

       1. A person appealing a Letter of Denial (LOD) may request a personal
appearance by notifying the Defense Office of Hearings and Appeals (DOHA) in
writing at the following address: Director, Defense Office of Hearings and
Appeals, Post Office Box 3656, Arlington, Virginia 22203 (FAX
No. 703-696-6865). The request must be sent to DOHA within 10 calendar days



                                     34
of receipt of the LOD. An extension of time may be granted by the Director,
DOHA or designee for good cause demonstrated by the appellant.

        2. Upon receipt of a request for a personal appearance, DOHA shall
promptly request the appellant’s case file from the appropriate CAF, assign the
case to an AJ, and provide a copy of the request to the appropriate PSAB. The
CAF shall provide the case file to DOHA normally within 10 calendar days.

        3. The AJ will schedule a personal appearance generally within
30 calendar days from receipt of the request and arrange for a verbatim transcript
of the proceedings. For appellants at duty stations within the lower 48 states, the
personal appearance will be conducted at the appellant’s duty station or a nearby
suitable location. For individuals assigned to duty stations outside the lower
48 states, the personal appearance will be conducted at the appellant’s duty
station or a nearby suitable location, or at DOHA facilities located in the
Washington, D.C. metropolitan area or the Los Angeles, California metropolitan
area as determined by the Director, DOHA, or designee.

      4. Travel costs for the appellant will be the responsibility of the
employing organization.

       5. The AJ will conduct the personal appearance proceedings in a fair and
orderly manner:

               a. The appellant may be represented by counsel or personal
representative at his own expense;

              b. The appellant may make an oral presentation and respond to
questions posed by his counsel or personal representative, and shall respond to
questions asked by the AJ;

             c. The appellant may submit documents relative to whether the
LOD should be overturned;

             d. The appellant will not have the opportunity to present or cross-
examine witnesses;
               e. Upon completion of the personal appearance, the AJ will
generally forward, within 30 calendar days, a written recommendation to the
appropriate PSAB on whether to sustain or overturn the LOD, along with the case
file and any documents submitted by the appellant. A copy of the AJ
recommendation will be provided to the CAF.

       6. The PSAB will render a final written determination stating its rationale
and notify the individual in writing (through the individual’s employing
organization) generally within 30 calendar days of receipt of the recommendation
from DOHA. This will be final and will conclude the appeal process.




                                     35
Appendix D3. Executive Order No. 10865,
             Sections 3 and 4
   Section 3. Except as provided in section 9 of this order, an authorization for
   access to a specific classification category may not be finally denied or revoked
   by the head of the department or his designee, including, but not limited to, those
   officials named in section 8 of this order, unless the applicant has been given the
   following:

          (1) A written statement of the reasons why his access authorization may
   be denied or revoked, which shall be as comprehensive and detailed as the
   national security permits.
           (2) A reasonable opportunity to reply in writing under oath or affirmation
   to the statement of reasons.

           (3) After he has filed under oath or affirmation a written reply to the
   statement of reasons, the form and sufficiency of which may be prescribed by
   regulations issued by the head of the department concerned, an opportunity to
   appear personally before the head of the department concerned or his designee,
   including, but not limited to, those officials named in section 8 of this order, for
   the purpose of supporting his eligibility for access authorization and to present
   evidence on his behalf.

          (4) A reasonable time to prepare for that appearance.

          (5) An opportunity to be represented by counsel.

           (6) An opportunity to cross-examine persons either orally or through
   written interrogatories in accordance with section 4 on matters not relating to the
   characterization in the statement of reasons of any organization or individual
   other than the applicant.
           (7) A written notice of the final decision in his case which, if adverse,
   shall specify whether the head of the department or his designee, including, but
   not limited to, those officials named in section 8 of this order, found for or against
   him with respect to each allegation in the statement of reasons.

   Section 4. (a) An applicant shall be afforded an opportunity to cross-examine
   persons who have made oral or written statements adverse to the applicant
   relating to a controverted issue except that any such statement may be received
   and considered without affording such opportunity in the circumstances described
   in either of the following paragraphs:

          (1) The head of the department supplying the statement certifies that the
   person who furnished the information is a confidential informant who has been
   engaged in obtaining intelligence information for the Government and that
   disclosure of his identity would be substantially harmful to the national interest.



                                         36
         (2) The head of the department concerned or his special designee for that
particular purpose has preliminarily determined, after considering information
furnished by the investigative agency involved as to the reliability of the person
and the accuracy of the statement concerned, that the statement concerned appears
to be reliable and material, and the head of the department or such special
designee has determined that failure to receive and consider such statement
would, in view of the level of access sought, be substantially harmful to the
national security and that the person who furnished the information cannot appear
to testify (A) due to death, severe illness, or similar cause, in which case the
identity of the person and the information to be considered shall be made
available to the applicant, or (B) due to some other cause determined by the head
of the department to be good and sufficient.

(b) Whenever procedures under paragraph (1) or (2) of subsection (a) of this
section are used (1) the applicant shall be given a summary of the information
which shall be as comprehensive and detailed as the national security permits, (2)
appropriate consideration shall be accorded to the fact that the applicant did not
have an opportunity to cross-examine such person or persons, and (3) a final
determination adverse to the applicant shall be made only by the head of the
department based upon his personal review of the case.




                                    37
Appendix D4. DoDD 5220.6, Sections 4.3. and 4.4.
             and Enclosure E3, Sections E3.1.1.
             through E3.1.36.6.
    4. POLICY

           4.3. Except as otherwise provided for by E.O. [Executive Order] 10865
    (enclosure 1) or this Directive, a final unfavorable clearance decision shall not be
    made without first providing the applicant with:

           4.3.1. Notice of specific reasons for the proposed action.
           4.3.2. An opportunity to respond to the reasons.

          4.3.3. Notice of the right to a hearing and the opportunity to cross-
    examine persons providing information adverse to the applicant.

           4.3.4. Opportunity to present evidence on his or her own behalf, or to be
    represented by counsel or personal representative.

           4.3.5. Written notice of final clearance decisions.

           4.3.6. Notice of appeal procedures.

           4.4. Actions pursuant to this Directive shall cease upon termination of the
    applicant’s need for access to classified information except in those cases in
    which:

           4.4.1. A hearing has commenced;

           4.4.2. A clearance decision has been issued; or

           4.4.3. The applicant’s security clearance was suspended and the applicant
    provided a written request that the case continue.

    E3. ENCLOSURE 3, ADDITIONAL PROCEDURAL GUIDANCE
    E3.1.1. When the DISCO cannot affirmatively find that it is clearly consistent
    with the national interest to grant or continue a security clearance for an
    applicant, the case shall be promptly referred to the DOHA.

    E3.1.2. Upon referral, the DOHA shall make a prompt determination whether to
    grant or continue a security clearance, issue a statement of reasons (SOR) as to
    why it is not clearly consistent with the national interest to do so, or take interim
    actions, including but not limited to:

           E3.1.2.1. Direct further investigation.



                                          38
       E3.1.2.2. Propound written interrogatories to the applicant or other
persons with relevant information.

      E3.1.2.3. Requiring the applicant to undergo a medical evaluation by a
DoD Psychiatric Consultant.

       E3.1.2.4. Interviewing the applicant.

E3.1.3. An unfavorable clearance decision shall not be made unless the applicant
has been provided with a written SOR that shall be as detailed and comprehensive
as the national security permits. A letter of instruction with the SOR shall explain
that the applicant or Department Counsel may request a hearing. It shall also
explain the adverse consequences for failure to respond to the SOR within the
prescribed time frame.

E3.1.4. The applicant must submit a detailed written answer to the SOR under
oath or affirmation that shall admit or deny each listed allegation. A general
denial or other similar answer is insufficient. To be entitled to a hearing, the
applicant must specifically request a hearing in his or her answer. The answer
must be received by the DOHA within 20 days from receipt of the SOR.
Requests for an extension of time to file an answer may be submitted to the
Director, DOHA, or designee, who in turn may grant the extension only upon a
showing of good cause.

E3.1.5. If the applicant does not file a timely and responsive answer to the SOR,
the Director, DOHA, or designee, may discontinue processing the case, deny
issuance of the requested security clearance, and direct the DISCO to revoke any
security clearance held by the applicant.

E3.1.6. Should review of the applicant’s answer to the SOR indicate that
allegations are unfounded, or evidence is insufficient for further processing,
Department Counsel shall take such action as appropriate under the
circumstances, including but not limited to withdrawal of the SOR and transmittal
to the Director for notification of the DISCO for appropriate action.

E3.1.7. If the applicant has not requested a hearing with his or her answer to the
SOR and Department Counsel has not requested a hearing within 20 days of
receipt of the applicant’s answer, the case shall be assigned to the Administrative
Judge for a clearance decision based on the written record. Department Counsel
shall provide the applicant with a copy of all relevant and material information
that could be adduced at a hearing. The applicant shall have 30 days from receipt
of the information in which to submit a documentary response setting forth
objections, rebuttal, extenuation, mitigation, or explanation, as appropriate.

E3.1.8. If a hearing is requested by the applicant or Department Counsel, the case
shall be assigned to the Administrative Judge for a clearance decision based on
the hearing record. Following issuance of a notice of hearing by the
Administrative Judge, or designee, the applicant shall appear in person with or
without counsel or a personal representative at a time and place designated by the
notice of hearing. The applicant shall have a reasonable amount of time to
prepare his or her case. The applicant shall be notified at least 15 days in advance


                                     39
of the time and place of the hearing, which generally shall be held at a location in
the United States within a metropolitan area near the applicant’s place of
employment or residence. A continuance may be granted by the Administrative
Judge only for good cause. Hearings may be held outside of the United States in
NATO [North Atlantic Treaty Organization] cases, or in other cases upon a
finding of good cause by the Director, DOHA, or designee.

E3.1.9. The Administrative Judge may require a pre-hearing conference.

E3.1.10. The Administrative Judge may rule on questions on procedure,
discovery, and evidence and shall conduct all proceedings in a fair, timely, and
orderly manner.

E3.1.11. Discovery by the applicant is limited to non-privileged documents and
materials subject to control by the DOHA. Discovery by Department Counsel
after issuance of an SOR may be granted by the Administrative Judge only upon a
showing of good cause.

E3.1.12. A hearing shall be open except when the applicant requests that it be
closed, or when the Administrative Judge determines that there is a need to
protect classified information or there is only good cause for keeping the
proceeding closed. No inference shall be drawn as to the merits of a case on the
basis of a request that the hearing be closed.

E3.1.13. As far in advance as practical, Department Counsel and the applicant
shall serve one another with a copy of any pleading, proposed documentary
evidence, or other written communication to be submitted to the Administrative
Judge.

E3.1.14. Department Counsel is responsible for presenting witnesses and other
evidence to establish facts alleged in the SOR that have been controverted.

E3.1.15. The applicant is responsible for presenting witnesses and other evidence
to rebut, explain, extenuate, or mitigate facts admitted by the applicant or proven
by Department Counsel, and has the ultimate burden of persuasion as to obtaining
a favorable clearance decision.
E3.1.16. Witnesses shall be subject to cross-examination.

E3.1.17. The SOR may be amended at the hearing by the Administrative Judge
on his or her own motion, or upon motion by Department Counsel or the
applicant, so as to render it in conformity with the evidence admitted or for other
good cause. When such amendments are made, the Administrative Judge may
grant either party’s request for such additional time as the Administrative Judge
may deem appropriate for further preparation or other good cause.

E3.1.18. The Administrative Judge hearing the case shall notify the applicant and
all witnesses testifying that 18 U.S.C. 1001 (reference (c)) is applicable.

E3.1.19. The Federal Rules of Evidence (28 U.S.C. 101 et seq. (reference (d))
shall serve as a guide. Relevant and material evidence may be received subject to


                                     40
rebuttal, and technical rules of evidence may be relaxed, except as otherwise
provided herein, to permit the development of a full and complete record.

E3.1.20. Official records or evidence compiled or created in the regular course of
business, other than DoD personnel background reports of investigation (ROI),
may be received and considered by the Administrative Judge without
authenticating witnesses, provided that such information has been furnished by an
investigative agency pursuant to its responsibilities in connection with assisting
the Secretary of Defense, or the Department or Agency head concerned, to
safeguard classified information within industry under E.O. 10865 (enclosure 1.).
An ROI may be received with an authenticating witness provided it is otherwise
admissible under the Federal Rules of Evidence (28 U.S.C. 101 et seq.
(reference (d)).

E3.1.21. Records that cannot be inspected by the applicant because they are
classified may be received and considered by the Administrative Judge, provided
the GC [General Counsel], DoD, has:

        E3.1.21.1. Made a preliminary determination that such evidence appears
to be relevant and material.

      E3.1.21.2. Determined that failure to receive and consider such evidence
would be substantially harmful to the national security.

E3.1.22. A written or oral statement adverse to the applicant on a controverted
issue may be received and considered by the Administrative Judge without
affording an opportunity to cross-examine the person making the statement orally,
or in writing when justified by the circumstances, only in either of the following
circumstances:

       E3.1.22.1 If the head of the Department or Agency supplying the
statement certifies that the person who furnished the information is a confidential
informant who has been engaged in obtaining intelligence information for the
Government and that disclosure of his or her identity would be substantially
harmful to the national interest; or

       E3.1.22.2. If the GC, DoD, has determined the statement concerned
appears to be relevant, material, and reliable; failure to receive and consider the
statement would be substantially harmful to the national security; and the person
who furnished the information cannot appear to testify due to the following:

                E3.1.22.2.1. Death, severe illness, or similar cause, in which case
the identity of the person and the information to be considered shall be made
available to the applicant; or

              E3.1.22.2.2 Some other cause determined by the Secretary of
Defense, or when appropriate by the Department or Agency head, to be good and
sufficient.

E3.1.23. Whenever evidence is received under items E3.1.21. or E3.1.22., above,
the applicant shall be furnished with as comprehensive and detailed a summary of


                                     41
the information as the national security permits. The Administrative Judge and
Appeal Board may make a clearance decision either favorable or unfavorable to
the applicant based on such evidence after giving appropriate consideration to the
fact that the applicant did not have an opportunity to confront such evidence, but
any final determination adverse to the applicant shall be made only by the
Secretary of Defense, or the Department or Agency head, based on a personal
review of the case record.

E3.1.24. A verbatim transcript shall be made of the hearing. The applicant shall
be furnished one copy of the transcript, less the exhibits, without cost.

E3.1.25. The Administrative Judge shall make a written clearance decision in a
timely manner setting forth pertinent findings of fact, policies, and conclusions as
to the allegations in the SOR, and whether it is clearly consistent with the national
interest to grant or continue a security clearance for the applicant. The applicant
and Department Counsel shall each be provided a copy of the clearance decision.
In cases in which evidence is received under items E3.1.21. and E3.1.22., above
the Administrative Judge’s written clearance decision may require deletions in the
interest of national security.

E3.1.26. If the Administrative Judge decides that it is clearly consistent with the
national interest for the applicant to be granted or to retain a security clearance,
the DISCO shall be so notified by the Director, DOHA, or designee, when the
clearance decision becomes final in accordance with item E3.1.36., below.

E3.1.27. If the Administrative Judge decides that it is not clearly consistent with
the national interest for the applicant to be granted or to retain a security
clearance, the Director, DOHA, or designee, shall expeditiously notify the
DISCO, which shall in turn notify the applicant’s employer of the denial or
revocation of the applicant’s security clearance. The letter forwarding the
Administrative Judge’s clearance decision to the applicant shall advise the
applicant that these actions are being taken, and that the applicant may appeal the
Administrative Judge’s clearance decision.

E3.1.28. The applicant or Department Counsel may appeal the Administrative
Judge’s clearance decision by filing a written notice of appeal with the Appeal
Board within 15 days after the date of the Administrative Judge’s clearance
decision. A notice of appeal received after 15 days from the date of the clearance
decision shall not be accepted by the Appeal Board, or designated Board Member,
except for good cause. A notice of cross-appeal may be filed with the Appeal
Board within 10 days of receipt of the notice of appeal. An untimely cross-appeal
shall not be accepted by the Appeal Board, or designated Board Member, except
for good cause.

E3.1.29. Upon receipt of a notice of appeal, the Appeal Board shall be provided
the case record. No new evidence shall be received or considered by the Appeal
Board.

E3.1.30. After filing a timely notice of appeal, a written appeal brief must be
received by the Appeal Board within 45 days from the date of the Administrative
Judge’s clearance decision. The appeal brief must state the specific issue or


                                     42
issues being raised, and cite specific portions of the case record supporting any
alleged error. A written reply brief, if any, must be filed within 20 days from
receipt of the appeal brief. A copy of any brief filed must be served upon the
applicant or Department Counsel, as appropriate.

E3.1.31. Requests for extension of time for submission of briefs may be
submitted to the Appeal Board or designated Board Member. A copy of any
request for extension of time must be served on the opposing party at the time of
submission. The Appeal Board, or designated Board Member, shall be
responsible for controlling the Appeal Board’s docket, and may enter an order
dismissing an appeal in an appropriate case or vacate such an order upon a
showing of good cause

E3.1.32. The Appeal Board shall address the material issues raised by the parties
to determine whether harmful error occurred. Its scope of review shall be to
determine whether or not:

       E3.1.32.1. The Administrative Judge’s findings of fact are supported by
such relevant evidence as a reasonable mind might accept as adequate to support a
conclusion in light of all the contrary evidence in the same record. In making this
review, the Appeal Board shall give deference to the credibility determinations of
the Administrative Judge;

       E3.1.32.2. The Administrative Judge adhered to the procedures required
by E.O. 10865 (enclosure 1.) and this Directive; or

        E3.1.32.3. The Administrative Judge’s rulings or conclusions are
arbitrary, capricious, or contrary to law.

E3.1.33. The Appeal Board shall issue a written clearance decision addressing the
material issues raised on appeal. The Appeal Board shall have authority to:

       E3.1.33.1 Affirm the decision of the Administrative Judge;

        E3.1.33.2. Remand the case to an Administrative Judge to correct
identified error. If the case is remanded, the Appeal Board shall specify the action
to be taken on remand; or

        E3.1.33.3. Reverse the decision of the Administrative Judge if correction
of identified error mandates such action.

E3.1.34. A copy of the Appeal Board’s written clearance decision shall be
provided to the parties. In cases in which evidence was received under items
E3.1.21. and E3.1.22., above, the Appeal Board’s clearance decision may require
deletions in the interest of national security.

E3.1.35. Upon remand, the case file shall be assigned to a Administrative Judge
for correction of error(s) in accordance with the Appeal Board’s clearance
decision. The assigned Administrative Judge shall make a new clearance decision
in the case after correcting the error(s) identified by the Appeal Board. The



                                     43
Administrative Judge’s clearance decision after remand shall be provided to the
parties. The clearance decision after remand may be appealed pursuant to items
E3.1.28. to E3.1.35., above.

E3.1.36. A clearance decision shall be considered final when:

        E3.1.36.1. A security clearance is granted or continued pursuant to item
E3.1.2., above;

         E3.1.36.2 No timely notice of appeal is filed;

         E3.1.36.3. No timely appeal brief is filed after a notice of appeal has been
filed;

         E3.1.36.4. The appeal has been withdrawn:

       E3.1.36.5. When the Appeal Board affirms or reverses an Administrative
Judge’s clearance decision; or

        E3.1.36.6. When a decision has been made by the Secretary of Defense,
or the Department or Agency head, under item E3.1.23., above. The Director,
DOHA, or designee, shall notify the DISCO of all final clearance decisions.




                                      44
Appendix E. Personnel Security Appeal Boards
       DoD 5200.2-R allows the individual CAFs discretion to choose their members,
       the manner of their selection, and their length of service. The Army, Navy, Air
       Force, and WHS PSABs are all operated differently.

Army
       The president and permanent member of the Army PSAB does not have a
       personnel security background. This is not in full compliance with
       DoD 5200.2-R, which requires that the president be both a permanent member
       and have a security background. However, the nonvoting executive secretary
       does have a background in personnel security. The 2 additional members are
       selected on rotational basis from among 10 individuals employed by the offices of
       the Deputy Chief of Staff for Operations and Plans, the Deputy Chief of Staff for
       Logistics, the Assistant Chief of Staff for Installation Management, the Chief of
       the Army Reserve, and the National Guard Bureau. This rotation allows
       individuals to attend about 3-4 meetings per year. The Army also allows
       members access to legal counsel when necessary rather than appointing a member
       to the board. The counsel for the Army does not attend all meetings but is
       contacted by the board most frequently by telephone or e-mail.

Navy
       The permanent member of the Navy PSAB is the president and has a security
       background. The two additional members include a member of the military that
       is at least at the O-6 level with an intelligence or an operations background, and
       the other member is a civilian that is at least a GS/GM-14 with a personnel
       background. Access to legal counsel, psychologists, and counterintelligence
       specialists are provided by the Naval Criminal Investigative Service.

Air Force
       All members of the Air Force PSAB are permanent members. The Air Force
       PSAB president has a legal background rather than a security background. This
       does not fully comply with DoD 5200.2-R; however, the other two members of
       the board have a security and an intelligence background.

Washington Headquarters Services
       The permanent member of the WHS PSAB is the president and has a security
       background. The two additional members are chosen from employees of the
       Office of the Secretary of Defense and employees from the same agency from
       which the applicant is seeking to appeal. The agency representative is appointed
       to ensure that the unique program and management interests of the agency are


                                            45
represented during board deliberations. The WHS chose to allow members to
have access to legal counsel rather than appoint a lawyer as a member. The legal
counsel available to the WHS PSAB is present at the meetings for any legal
inquiries members may have.




                                   46
Appendix F. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Special Programs
   Chairman, Business Initiative Council
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Intelligence
   Deputy Under Secretary of Defense (Security and Information Operations)
      Director, Security
         Deputy Director, Personnel Security
General Counsel of the Department of Defense
   Deputy General Counsel, Legal Counsel
   Director, Defense Office of Hearing and Appeals
Director, Washington Headquarters Services
   Director, Directorate for Personnel and Security
      Chief, Consolidated Adjudication Facility
      President, Clearance Appeal Board, Security Division

Joint Staff
Director, Joint Staff
   Director of Management
      Chief, Personnel Security Branch, Joint Staff Security Office

Department of the Army
Chief, Army Technology Management Office, Director of the Army Staff
Auditor General, Department of the Army
Commander, Army Central Personnel Security Clearance Facility, Intelligence and
   Security Command
President, Personnel Security Appeal Board, Assistant Secretary of the Army (Manpower
   and Reserve Affairs)

Department of the Navy
Naval Inspector General
Director, Special Programs Division, Chief of Naval Operations
President, Personnel Security Appeal Board, Chief of Naval Operations
Superintendent, Naval Postgraduate School
Auditor General, Department of the Navy
Director, Naval Criminal Investigative Service
   Director, Central Adjudication Facility



                                           47
Department of the Air Force
Administrative Assistant to the Secretary of the Air Force
   Director, Security and Special Programs Oversight
   Director, Air Force Central Adjudication Facility
Auditor General, Department of the Air Force
President, Personnel Security Appeal Board, General Law Division, Judge Advocate
   General

Other Defense Organizations
Director, Defense Intelligence Agency
   Chief, Central Adjudication Facility, Counter Intelligence and Security Activities,
      Directorate for Administration
   Inspector General, Defense Intelligence Agency
Director, Defense Security Service
   Inspector General, Defense Security Service
   Director, Defense Industrial Security Clearance Office
Director, National Security Agency
   Chief, Central Adjudication Facility, Personnel Security Analysis, Security Services
      Directorate
   Inspector General, National Security Agency
Inspector General, National Imagery and Mapping Agency

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
Senate Select Committee on Intelligence
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform
House Permanent Select Committee on Intelligence



                                           48
Office of the Under Secretary of Defense for
Intelligence Comments




                       49
Office of the General Counsel of the Department
of Defense Comments




                      50
51
Team Members
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Thomas F. Gimble
Robert K. West
Lois A. Therrien
Sheri D. Dillard
Mary A. Hoover
Eric G. Fisher
Jacqueline N. Pugh
